No. 20-255
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR BY AND THROUGH HER FATHER,
LAWRENCE LEVY AND HER MOTHER, BETTY LOU LEVY,
Respondents.
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify
that the Brief of Amici Curiae National School Boards
Association, The American Federation of Teachers,
The National Association of Elementary School Principals, The National Association of Secondary School
Principals, and AASA, the School Superintendents
Association in Support of Petitioner contains 5,900
words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
/s/ Kelsi Brown Corkran
Counsel of Record

